BECKER GALLAGHER
Briefs

and

J. WOLF, J.C.
A. KERSHNER, J.C.

DoNNA
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief Amicus Curiae of
Columbia International University and Sixth Mount
Zion Missionary Baptist Church in Support of
Petitioners in 19-267, Our Lady of Guadalupe School
v. Agnes Morrissey-Berru, and 19-348, St. James
School v. Darryl Biel, as Personal Representative of the
Estate of Kristen Biel, were sent via Next Day Service
to the U.S. Supreme Court, and 3 copies were sent via
Next Day Service and e-mail to the following parties
listed below, this 10th day of February, 2020:
Eric Christopher Rassbach
The Becket Fund for Religious Liberty
1200 New Hampshire Avenue, NW
Suite 700
Washington, DC 20036
(202) 955-0095
erassbach@becketlaw.org

Counsel for Petitioners
Jennifer Anne Lipski
JML Law, A Professional Law Corporation
5855 Topanga Canyon Boulevard
Suite 300
Woodland Hills, CA 91367
(818) 610-8800
jennifer@jmllaw.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

Christian M. Poland
Counsel of Record
Bryan Cave Leighton Paisner LLP
161 N. Clark St., Suite 4300
Chicago, Illinois 60601
(312) 602-5085
christian.poland@bclplaw.com

Counsel for Amicus Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 10, 2020.

Donna J. W ·
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

\. JULIE ANNE KERSHNER
\-.:c\rv ?ublic, State of Ohio

t.h Cur,1mission Expires
r0b:u;1ry 21, 2023

